             DEPARTMENT OF HEALTH AND HUMAN SERVICES                                Office of Inspector General
                                                                                     Office of Audit Services

                                                                                          REGION IV
                                                                              61 Forsyth Street, S.W., Suite 3T41
                                                                                   Atlanta, Georgia 30303
                                              JUL 3 1 2009



Report Number: A-04-08-07004

Donna Parker
South Carolina Department of Health and Human Services
1801 Main Street
Columbia, South Carolina 29202

Dear Ms. Parker:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled "Follow-up Review of the Medicaid Drug Rebate Program in
South Carolina." We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the Freedom ofInformation Act, 5 U.S.c. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Denise Rivera Novak, Audit Manager, at (305) 536-5309, extension 10, or through email
at Denise.Novak@oig.hhs.gov. Please refer to report number A-04-08-07004 in all
correspondence.

                                              Sincerely,

                                             tP~tCJJ&~~
                                              Peter J. Barbera
                                              Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Donna Parker


Direct Reply to HHS Action Official:

Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  FOLLOW -UP REVIEW OF THE
   MEDICAID DRUG REBATE
 PROGRAM IN SOUTH CAROLINA




                    Daniel R. Levinson
                     Inspector General

                        July 2009
                      A-04-08-07004
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the
Social Security Act. For a manufacturer’s covered outpatient drugs to be eligible for Federal
Medicaid funding under the program, the manufacturer must enter into a rebate agreement with
the Centers for Medicare & Medicaid Services (CMS) and pay quarterly rebates to the States.
CMS, the States, and drug manufacturers each undertake certain functions in connection with the
drug rebate program. In South Carolina, the Department of Health and Human Services (the
State agency) administers the Medicaid drug rebate program.

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in 49
States and the District of Columbia (A-06-03-00048). Those audits found that only four States
had no weaknesses in accountability for and internal controls over their drug rebate programs.
As a result of the weaknesses, we concluded that States lacked adequate assurance that all of the
drug rebates due to the States were properly recorded and collected. Additionally, CMS did not
have reliable information from the States to properly monitor the drug rebate program. In our
previous audit of the South Carolina drug rebate program (A-04-03-06011), we determined that
the State agency needed improvement over drug rebate accountability in the following areas: (1)
interest accrual and collection and (2) data integrity, including records retention. We
recommended that the State agency:

      implement adequate procedures and controls that would enable the State agency to
       account for the accrual and collection of interest on late, disputed, or unpaid rebate
       payments and

      review existing procedures and implement strict controls to safeguard drug rebate data.

The State agency agreed with our findings and recommendations.

This current review of South Carolina is part of a nationwide series of reviews conducted to
determine whether States have addressed the weaknesses in accountability for and internal
controls over their drug rebate programs found in the previous reviews. Additionally, because
the Deficit Reduction Act of 2005 required States, as of January 1, 2006, to begin collecting
rebates on single source drugs administered by physicians, this series of reviews will also
determine whether States have complied with the new requirement.

OBJECTIVES

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the South Carolina drug rebate program and (2)
established controls over collecting rebates on single source drugs administered by physicians.




                                                 i
SUMMARY OF FINDINGS

The State agency, through its fiscal agent First Health Services, had implemented the
recommendations from our previous audit related to data integrity, including record retention.
However, the State agency had partially implemented the recommendation related to interest
accrual and collection.

The State agency had not established procedures to validate the accuracy of interest paid by the
manufacturers and had not actively pursued the outstanding interest due. As a result, there was
no assurance that interest paid by the manufacturers was accurate or that the State agency had
collected all of the interest due.

The State agency had established controls over collecting rebates on single source drugs
administered by physicians.

RECOMMENDATIONS

We recommend that the State agency implement adequate procedures to ensure that interest
payments are verified as accurate and that it more actively pursue outstanding interest due.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
recommendations. The complete text of the State agency’s comments is included in its entirety
as the Appendix.




                                                ii
                                                    TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION............................................................................................................1

     BACKGROUND .........................................................................................................1
       Drug Rebate Program ............................................................................................1
       Physician-Administered Drugs .............................................................................1
       Previous Office of Inspector General Reports .......................................................2
       South Carolina Drug Rebate Program ...................................................................2

     OBJECTIVES, SCOPE, AND METHODOLOGY .....................................................3
       Objectives ...............................................................................................................3
       Scope.......................................................................................................................3
       Methodology ...........................................................................................................3

FINDINGS AND RECOMMENDATIONS ..................................................................4

     IMPLEMENTATION OF PREVIOUS RECOMMENDATIONS .............................4
        Interest Collection ..................................................................................................4

     PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS ..................................5

     RECOMMENDATIONS .............................................................................................5

     STATE AGENCY COMMENTS ...............................................................................5

APPENDIX




                                                                      iii
                                             INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Drug Rebate Program

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the Act.
For a manufacturer’s covered outpatient drugs to be eligible for Federal Medicaid funding under
the program, the manufacturer must enter into a rebate agreement with CMS and pay quarterly
rebates to the States. CMS, the States, and drug manufacturers each undertake certain functions
in connection with the drug rebate program. In South Carolina, the Department of Health and
Human Services (the State agency) is responsible for the drug rebate program.

Pursuant to section II of the rebate agreement and section 1927(b) of the Act, manufacturers are
required to submit a list to CMS of all covered outpatient drugs and to report each drug’s average
manufacturer price and, where applicable, best price. Based on this information, CMS calculates
a unit rebate amount for each covered outpatient drug and provides the amounts to States
quarterly.

Section 1927(b)(2)(A) of the Act requires States to maintain drug utilization data that identifies,
by National Drug Code (NDC), the number of units of each covered outpatient drug for which
the States reimbursed providers. The number of units is applied to the unit rebate amount to
determine the actual rebate amount due from each manufacturer. Section 1927(b)(2) of the Act
requires States to provide the drug utilization data to CMS and the manufacturer. States also
report drug rebate accounts receivable data on Form CMS-64.9R. This is part of Form CMS-64,
“Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program,” which
summarizes actual Medicaid expenditures for each quarter and is used by CMS to reimburse
States for the Federal share of Medicaid expenditures.

Physician-Administered Drugs

Section 6002(a) of the Deficit Reduction Act of 2005 (DRA) amends section 1927(a) of the Act
and requires States, as of January 1, 2006, to collect and submit utilization data for single source
drugs administered by physicians so that States may obtain rebates for the drugs.1 Single source
drugs are commonly referred to as “brand name drugs” and do not have generic equivalents.

1
 This provision of the DRA expands the requirement to certain multiple source drugs administered by physicians
after January 1, 2008.



                                                        1
In South Carolina, physician-administered drugs are billed to the State Medicaid program on a
physician claim form using procedure codes that are part of the Healthcare Common Procedure
Coding System. The NDC is not included on the physician claim form. The procedure code
identifies a drug by its active ingredient(s) and identifies the number of drug units (billing units)
allowed per reimbursement for that procedure code. Because rebates are calculated and paid
based on NDCs, each procedure code must be converted to an NDC. Additionally, the billing
units for a procedure code may differ from the units used for rebate purposes (e.g., grams versus
liters). Therefore, to determine rebates, the procedure codes must be converted into NDCs for
single source drugs, and procedure code billing units must be converted into equivalent NDC
billing units.

Previous Office of Inspector General Reports

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in 49
States and the District of Columbia.2 Those audits found that only four States had no
weaknesses in accountability for and internal controls over their drug rebate programs. As a
result of the weaknesses, we concluded that States lacked adequate assurance that all of the drug
rebates due to the States were properly recorded and collected. Additionally, CMS did not have
reliable information from the States to properly monitor the drug rebate program.

In our previous audit of the South Carolina drug rebate program (A-04-03-06011), we
determined that the State agency needed improvement over drug rebate accountability in the
following areas: (1) interest accrual and collection and (2) data integrity, including records
retention. We recommended that the State agency:

       implement adequate procedures and controls that would enable the State agency to
        account for the accrual and collection of interest on late, disputed, or unpaid rebate
        payments and

       review existing procedures and implement strict controls to safeguard drug rebate data.

The State agency agreed with our findings and recommendations.

South Carolina Drug Rebate Program

The State agency contracts with its fiscal agent, First Health Services (FHS), to perform all drug
rebate program functions other than receiving rebate funds. FHS’s responsibilities include
generating and forwarding rebate invoices, conducting dispute resolution, and updating and
maintaining a labeler’s accounts receivable file.

The State agency reported an outstanding drug rebate balance of $31,705,144 on the June 30,
2006, Form CMS-64.9R. However, $28,378,284 of this amount related to quarterly billings and

2
 “Multistate Review of Medicaid Drug Rebate Programs” (A-06-03-00048), issued July 6, 2005; Arizona was not
included because it did not operate a drug rebate program.



                                                      2
was not past due as of June 30, 2006. Of the remaining $3,326,860 that was past due, none of
that amount was more than 1 year old. For the fiscal year ended June 30, 2006, the State agency
reported rebate billings of approximately $213.9 million and collections of $224.4 million.

This current review of the South Carolina drug rebate program is part of a nationwide series of
reviews conducted to determine whether States have addressed the weaknesses in accountability
for and internal controls over their drug rebate programs found in the previous reviews
Additionally, because the DRA required States, as of January 1, 2006, to begin collecting rebates
on single source drugs administered by physicians, this series of reviews will also determine
whether States have complied with the new requirement.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the South Carolina drug rebate program and (2)
established controls over collecting rebates on single source drugs administered by physicians.

Scope

We reviewed the State agency’s current policies, procedures, and controls over the drug rebate
program and the accounts receivable data reported on Form CMS-64.9R as of June 30, 2006.
We performed our fieldwork from June through October 2007, at the offices of FHS, located in
Glenn Allen, Virginia.

Methodology

To accomplish our objectives, we:

       reviewed section 1927 of the Act, section 6002(a) of the DRA, CMS guidance issued to
        State Medicaid directors and other information pertaining to the Medicaid drug rebate
        program;

       reviewed the policies and procedures related to FHS’s drug rebate accounts receivable
        system;

       interviewed FHS staff to determine the policies, procedures and controls that related to
        the Medicaid drug rebate program;

       reviewed copies of Form CMS-64.9R for the period July 1, 2005, through June 30, 2006;

       interviewed FHS staff to determine the processes used in converting physician services
        claims data into drug rebate data related to single source drugs administered by
        physicians; and



                                                 3
      reviewed rebate billings and reimbursements for procedure codes related to single source
       drugs administered by physicians for the period January 1 through June 30, 2006.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The State agency, through its fiscal agent FHS, had implemented the recommendations from our
previous audit related to data integrity, including records retention. However, the State agency
had partially implemented the recommendation related to interest accrual and collection.

The State agency had established controls over collecting rebates on single source drugs
administered by physicians.

IMPLEMENTATION OF PREVIOUS RECOMMENDATIONS

In our previous audit of the South Carolina drug rebate program, we determined that the State
agency had not: (1) accrued or tracked interest from drug manufacturers and did not have
adequate controls to validate whether interest payments received from manufacturers were
correct and (2) maintained adequate controls over data processing records under its care.

Since our previous audit, the State agency had (1) accrued and tracked the interest payments
received from manufacturers and (2) implemented strict controls to safeguard drug rebate data.
However, the State agency did not have adequate controls to validate whether interest payments
received from manufacturers were correct.

Interest Collection

The State agency had accrued the interest due from the manufacturers. The interest was
calculated using published yield rates of Treasury bills. In addition, the State agency had tracked
the interest payments received from the manufacturers. However, the State agency had not
established procedures to validate the accuracy of interest paid by the manufacturers and had not
actively pursued the outstanding interest due. Although an FHS official had stated that unpaid
interest amounts were communicated to the manufacturers on their Prior Period Adjustment
statement, this was the extent of FHS’s efforts to collect interest due the State agency. As a
result, there was no assurance that interest paid by the manufacturers was accurate or that the
State agency had collected all of the interest due .

According to CMS Medicaid Drug Rebate Program Release No. 65, it is the manufacturers’
responsibility to calculate and pay interest for applicable rebate invoices. In addition, CMS
Medicaid Drug Rebate Program Release No. 29 states that interest must be collected and 45 CFR
§ 92.20(b)(3) requires that States provide for effective control over and accountability of all


                                                 4
funds, property, and other assets. Furthermore, FHS policies and procedures state that “[t]he
Rebate Program provides for the application, accrual and collection of interest.”

PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS

The State agency had established controls over collecting rebates for single source drugs
administered by physicians as required by the DRA. The State agency paid $52,057,890 in
claims for physician-administered drugs during the January through June 2006 period and billed
manufacturers for rebates totaling $5,980,575.

RECOMMENDATIONS

We recommend that the State agency implement adequate procedures to ensure that interest
payments are verified as accurate and that it more actively pursue outstanding interest due.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
recommendations. The complete text of the State agency’s comments is included in its entirety
as the Appendix.




                                                5
APPENDIX
                                                                                          APPENDIX




                                  ~tate        of ~out!) <1Iaroliua
                                  ~cp"rtmmt (If ~<tlt~ lIno ~lttnan ~rr&irts
Mark Sanford                                                                                lmrn.   ~'",kn<T

 GO"Of",""                                                                                    l);,",~O'



                                                   July 2, 2009




        Mr. Peter J. Barbera
        Regional Inspector General for Audit Services
        Office of Inspector General
        61 Forysth Street, S.W., Suite 3T41
        Atlanta, Georgia 30303

        Dear Mr. Bmb,:!(C:I:

        The South Carolina Department of Health and Human Services (SCDHHSj received
        your draft report entitled "Follow-Up Review of the Medicaid Drug Rebate Program in
        South Carolina,"       The findings have been reviewed and SCDHHS concurs with the
        findings.   SCDHHS will establish procedures for our internal audit staff to perform
        yearly audits of the rebate interest calculations and payments to ensure accuracy.
        SCDHHS will also be actively pursuing outstanding interest due by referral to our legal
        department and collections. Please let me know if there are questions.




                                                                  4;J;/~tJ/k
                                                                  William L. Wells, CPA
                                                                  Deputy Director

        WW/bfh




                                               FiMr>ce .nd Admini.".,ion
                                  P.O. Bu, 5206' Culu,,,I>i•• Suuth Cd'Qlin~ 29202-5206
                                          15031598-2503'    F.,  (8031 255·8;>35
